IN/ THE SU REME COURT
OF THE UNITED STATES
n

PHILLIP MALDONADO/
Petitioner

C.A. NO.

V.
COMMONWEALTH OF PENNSYLVANIA/
Respondent

PROOF OF SERVICE

1/ Phillip Maldonado/ do swear or declare that this
date January 10th/ 2021/ as required by the Supreme Court
Rule 29 I have serve the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding/ by
depositing an envelope containing the above documents in teh
United States mail properly addressed to each of them and
with first-class postage prepaid/ for delivery in 3 calendar
days.
The names and addresses of those served are as follows:
Nichole Eisenahrt/ Esq.
First Asst. District Attorney
Room 11/ Municipal Buil'ding
400 South Eighth St.
Lebanon/ PA 17042
I declare under the penalty of perjury that the
foregoing is true and correct.
Executed on January 11/ 2021

/s/ pAjQ:
Phillip

